August 25, 2010

JORDAN M. SMALL
VICE PRESIDENT, OPERATIONS, NORTHEAST AREA

PRISCILLA M. MANEY
DISTRICT MANAGER, NORTHERN NEW JERSEY DISTRICT

SUBJECT: Audit Report – Facility Optimization: Northern New Jersey District
         (Report Number DA-AR-10-008)

This report presents the results of our audit of facility optimization in the Northern New
Jersey District (Project Number 09YG051DA000). The U.S. Postal Service Office of
Inspector General (OIG) initiated this audit due to the district’s high-risk ranking
identified through our Real Estate Risk Model (RERM). Our objective was to identify
opportunities for the Northern New Jersey District to optimize existing real estate. See
Appendix A for additional information about this audit.

The Northern New Jersey District uses 432 facilities with over 7.8 million interior square
feet (SF). While the district employs these facilities, it has experienced a significant
reduction in workload over recent years. From fiscal year (FYs) 2005 to 2009, mail
volume has dropped 20 percent. Customer traffic has also declined in post office
lobbies as retail transactions shift to alternate access locations. From FYs 2005 to 2009,
alternate access revenue in the Northern New Jersey District has increased by 102
percent. This reduction in workload provides an opportunity to reevaluate space needs
and identify potential excess space.

Conclusion

The Northern New Jersey District has 1.98 million square feet in excess of what their
workload suggests they need. A breakdown of excess space identified at sites visited in
the district indicated that 81 percent of the excess space was associated with main post
offices and plants. Postal Service has the option to optimize excess real property
through:

      Disposals – selling property.
      Outleasing – leasing owned property.
      Subleasing/Assignment – reassigning leased property.
      Development – investing in real estate projects.
Facility Optimization: Northern New Jersey District                                           DA-AR-10-008



With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically, the Northern New Jersey District plans to dispose of 44,000
SF of this excess through approved optimization projects, with another 571,590 SF
planned for evaluation in FY 2010. Although it has made progress, the Postal Service
can do more to dispose of excess interior space in a timelier manner.

Postal Service policy1 requires installation and district heads to annually review and
report excess property. The opportunity to optimize excess interior space in the
Northern New Jersey District exists because:

      Postal Service policy requires installation heads to report excess space, but does
       not provide the necessary guidance to effectively accomplish this task.

      The excess space reporting system does not track metrics such as dates or
       space conditions to allow for the prioritization of disposal actions.

We estimate that if the Northern New Jersey District initiates disposal2 action for the
excess space we identified, there is a potential opportunity to realize $157,963,990 over
typical and remaining lease terms. We consider this amount to be funds put to better
use.3 See Appendix B for our detailed analysis of this topic and Appendix C for our
calculation of monetary impact.

We recommend the district manager, Northern New Jersey District, in coordination with
the manager, Northeast Facility Service Office:

1. Ensure installation heads have the proper guidance for identifying and reporting
   excess space.

2. Include additional metrics, such as dates identified and space conditions, to track,
   monitor, and report excess space within the Northern New Jersey District and initiate
   disposal actions for excess space identified.




1
  Per the Administrative Support Manual (ASM) 13, Section 517.11, installation heads must review the inventory of
Postal Service-owned property at least annually to determine whether there are any properties the Postal Service no
longer needs and report that excess property through the Facilities Database. Section 517.34 states that installation
heads, district managers, and vice presidents of Area Operations should report all excess space in Postal
Service-owned or leased buildings.
2
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square feet that are part of an approved node study.


                                                          2
Facility Optimization: Northern New Jersey District                    DA-AR-10-008



Management’s Comments

Management agreed with both of our recommendations and stated corrective actions to
address the recommendations will be in place by the end of quarter two, fiscal year
2011. While management agreed to develop a more accurate process and additional
metrics to better manage excess space, management did not agree with the amount of
excess space or the potential monetary impact reported. Specifically, they disagreed
with the methodology used to calculate excess space, the cost factors used to value the
excess space and the calculation of the monetary impact reported.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Existing functions not included in standard designs.

    3. Inefficiencies in current building layouts and support space due to code
       requirements.

    4. Historic property.

    5. Parking and dock space requirements.

    6. Large inflexible retail lobbies.

In reference to the cost factors used in our calculations, management disagreed with
the:

       Amount of facilities within the district.

       Level of approved optimization studies reported.

       Square foot value assigned to excess space.

       Build out cost factors.

As such, management believes the accurate way to calculate monetary impact is by
multiplying usable excess space by sublease value less conversion cost. This
calculated outcome can then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior square feet, which represents 16 percent


                                                      3
Facility Optimization: Northern New Jersey District                        DA-AR-10-008



of buildings and 76 percent of interior square feet. This allows Postal Service to capture
the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the audit report.
With respect to the methodology used to calculate excess space, we did not determine
whether the excess space identified was usable, in part because Postal Service
systems do not identify usable areas. We agree realty management policies and
systems need to be updated to define usable areas. According to commercial realty
standards,4 usable areas are generally measured from "paint to paint" inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service headquarters and
many federal agency buildings utilize basement space. We did not include allowances
for existing functions, building layout inefficiencies, and inflexible spaces because the
Postal Service’s current space standards did not specify these allowances. Our audit
focused on interior excess space and thus excess parking and dock space was outside
the scope of the audit.

Postal Service management also conveyed that we did not consider the historic nature
of buildings and that they are possibly restricted in making changes to these buildings.
While we agree that there are properties held by the Postal Service that are historic in
nature, we do not feel this has a large impact in the presentation of our results. The
number of eligible historic buildings listed in the Postal Service’s systems account for
less than one percent of their properties. Also, while the Postal Service is required to
consult with historical organizations, they are not bound by those consultations or
decisions.

For clarification, the discrepancy in the number of facilities highlighted by Postal Service
is the result of limiting the scope of our audit to buildings classified as post offices in the
facilities database. We also included in our review processing plants located near
selected sites. The number of facilities conveyed by Postal Service includes all facility
classifications or types within the district. The cost factors used in our calculations
represent district averages recorded in Postal Service facility databases as of October
2009.

Postal Service management asserted that the audit team did not consider all the node
studies from FY 2009. We considered all the “approved” node studies, rather than
“completed” node studies. An “approved” node study represents concurrence by area
office management and therefore is an active consolidation effort. A “completed” node

4
    www.boma.org


                                                      4
Facility Optimization: Northern New Jersey District                        DA-AR-10-008



study is merely a study of consolidation options in which the area office management
has yet to agree to a specific course of action.

We requested specific “build-out” costs from the Postal Service for the Northern New
Jersey District. The Postal Service responded that they do not have a methodology of
determining these costs at a national, area, or district level. As such, to determine build-
out cost we used the average build-out costs for the area as presented in their node
studies. We note that build out costs are negotiable and lessees, at times, absorb the
cost of conversion. We built in several tolerances relating to the size of excess space at
sites reviewed and considered the marketability of properties within the districts. We
recognized realty market conditions and discounted our excess space calculations by
the national commercial vacancy rate of 14 percent. As such, we consider our
presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 square feet. We believe that
once management modernizes its realty management systems to have greater visibility
of excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-4546.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Steven J. Forte
    Tom A. Samra
    Henry Burmeister
    Corporate Audit Response Management




                                                      5
Facility Optimization: Northern New Jersey District                         DA-AR-10-008



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Northern New Jersey District leases or owns 432 facilities with over 7.8 million
interior SF to move the mail. The consolidation or closure of facilities is a widely
discussed topic due to declining mail volume and the resulting financial condition of the
Postal Service. In response, Postal Service Facilities and Retail Management
organizations have implemented initiatives to optimize space, namely, initiation of the
Facility Optimization Program and the Station and Branch Optimization Consolidation
(SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Northeast Area has 27 approved optimization studies, with five in the Northern New
Jersey District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. At the district level, Northern
New Jersey initially identified six locations for review.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:

                                         Table 1. Risk Metrics

                                   RERM METRICS
Ratio of Mail Volume to Interior Square    Excess Postal Service Identified
Footage                                    Interior Space
Ratio Revenue to Interior Square Footage   Excess Land
Ratio of Total Expense to Interior Square  Facility Condition
Footage
Ratio of Employees to Interior Square      Density, Geographic Location
Footage
Ratio of Retail Revenue to Total Expense

The Northern New Jersey District ranked as second most at risk of all 74 districts as of
Quarter 2, FY 2010.




                                                      6
                                           Restricted Information
Facility Optimization: Northern New Jersey District                                              DA-AR-10-008




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Northern New Jersey
District to optimize existing real estate. We visited 525 of 432 facilities in the Northern
New Jersey District, which represents 64 percent of OIG-calculated total excess space.
The scope of the audit included main post offices, carrier annexes, stations, branches,
and mail processing facilities. To accomplish our objective we visited selected facilities,
conducted interviews, and examined other relevant materials.

We used Postal Service criteria6 for new space projects to establish space requirements
for post office facilities in the Northern New Jersey District. Our excess space metric
subtracts the earned facility size from actual facility size7 to calculate the excess space.
To determine the earned facility size, we used the Space Requirements Model matrix8.
The matrix computes earned space based on the delivery and retail workload conducted
at each site. We compared workload data from Postal Service databases9 to the number
of carrier routes, the number of rented post office box sections, and peak window usage.
Our method differs from existing Postal Service initiatives10 because it focuses on the total
facility size, not specific operations. We designed our metric primarily for customer
service facilities. We obtained the measurements for excess space at processing plants
from respective industrial engineers.

Facilities management suggested we use detailed facility information available in
recently conducted space surveys to calculate our excess space. This approach would
provide greater insight into the type and location of space designated as excess. While
this method has merit, we were not able to use this approach because the space
surveys were conducted only at buildings with 10,000 or more net interior square feet.
These buildings — while containing the majority of the Postal Service interior space —
only accounted for 16 percent of the total number of facilities nationally. Consequently,
we opted to use a global approach and assess excess space at the total facility level.

We modified our metric as follows to address obstacles in applying it to existing real
estate resources.

         We established thresholds to remove post offices with less than 100 SF of
          excess space and carrier annexes with less than 300 SF of excess space.


5
  In our sample of 52 facilities, the Kilmer and Newark retail facilities were located within their respective processing
and distribution centers (P&DCs), which we had also selected for review. For purposes of determining the OIG-
calculated excess square footage and total earned building size per matrix, we combined the retail site with the
P&DC.
6
  We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations.
7
    Interior square footage obtained from the electronic Facilities Management System (eFMS).
8
  . In support of newly established criteria, the Headquarters Facility Group, Planning and Approval, designed matrices
to assist with space requirements for planned facilities. We used the Space Requirements Matrix for Non-Flat
Sequencing System (FSS) offices.
9
   WebBATS Monthly Summary Data for issued P.O. Box information, Intelligent Mail and Address Quality (IMAQ)
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
10
    SBOC and Facilities Optimization Program.
                                                            7
Facility Optimization: Northern New Jersey District                      DA-AR-10-008



       We used Non-Flat Sequencing System building standards for customer service
        sites.

       We provided additional support space by calculating retail and delivery space
        requirements separately.

       We provided additional delivery space for facilities with more than 51 routes. The
        additional routes received the space designated for a separate total facility
        instead of following the Postal Service’s practice of adding an additional 123 SF
        per route.

       At facilities with unique functions, we either subtracted the space dedicated to
        that function from our metric or relied on Postal Service expertise to provide us
        with an accurate account of the building’s excess space.

       Furthermore, we reduced our total monetary impact by 14 percent to address the
        difficulty in achieving a 100 percent realization of optimization efforts. The
        reduction correlates directly to the national vacancy rate for commercial real
        estate.

We conducted this performance audit from September 2009 through August 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 14, 2010 and July 15,
2010, and included their comments where appropriate.

We assessed the reliability of facility-related data by verifying the accuracy of computer-
generated information by making observations during facility tours and interviewing
agency officials knowledgeable about the data. We determined the data used was
sufficiently reliable for the purposes of this report.




                                                      8
  Facility Optimization: Northern New Jersey District                                DA-AR-10-008




  PRIOR AUDIT COVERAGE

  The following audit reports are relevant to the Postal Service’s facility infrastructure.

                                                      Final
                                  Report
      Report Title                                   Report                   Report Results
                                  Number
                                                       Date
Restructuring the U.S.        GAO-09-937SP          7/28/2009   The Government Accountability Office
Postal Service to Achieve                                       added the U.S. Postal Service’s financial
Sustainable Financial                                           condition to the list of high-risk areas
Viability                                                       needing attention by Congress and the
                                                                executive branch to achieve broad-based
                                                                transformation. It recognized the need to
                                                                reduce the facility infrastructure. There is no
                                                                Postal Service response in the report.
Federal Real Property: An      GAO-09-801T          7/15/2009   Federal agencies have taken some positive
Update on High-Risk                                             steps to address real property issues but
Issues                                                          some of the core problems that led to the
                                                                designation of this area as “high-risk”
                                                                continue to persist. There is no Postal
                                                                Service response in the report.
Network Rightsizing            GAO-09-674T          5/20/2009   The Postal Service will require actions in a
Needed to Help Keep                                             number of areas, such as rightsizing its retail
USPS Financially Viable                                         and mail processing networks by
                                                                consolidating operations and closing
                                                                unnecessary facilities. The Postal Service
                                                                generally agreed with the accuracy of the
                                                                statements and provided technical
                                                                comments, which we incorporated.
Use of Existing Postal         SA-AR-08-007         3/21/2008   The Pacific, Great Lakes, New York Metro,
Owned Space – Capping                                           and Southeast Areas did not monitor or
                                                                actively track and report underutilized and
                                                                vacant space. Management agreed with the
                                                                recommendation.




                                                        9
Facility Optimization: Northern New Jersey District                                            DA-AR-10-008




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Northern New Jersey District

Based on facility space requirements,11 we calculated that the Northern New Jersey
District maintains 1.98 million SF more than what is required for its current operational
workload, thus, can be considered potential excess space. As depicted in Chart 1,
excess space was 41 percent of the total interior square footage.

                  Chart 1 – District Interior and Excess Space Comparison




Table 2 shows the breakdown of interior square footage and OIG-calculated excess for
the 5212 visited facilities in the Northern New Jersey District. Main post offices
contributed 46 percent of the excess space, while plants (35 percent) and branches (8
percent) followed to a lesser degree.




11
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this newly established criteria, the Headquarters Facility Group, Planning and Approval,
designed matrices to assist with the space requirements of planned facilities.
12
   As mentioned previously, the Kilmer and Newark retail facilities are co-located within their respective processing
and distribution centers (P&DCs), thus we combined them with the P&DC when calculating excess space.
                                                          10
Facility Optimization: Northern New Jersey District                                DA-AR-10-008




                       Table 2. Excess Space by Facility Type Visited

                                                                          OIG 
                                                                                    Interior 
                                 Facility  Percentage  Percentage        Excess 
             Facility Type                                                           Square 
                               Type Count   of Count    of Excess        Square 
                                                                                    Footage 
                                                                        Footage 
           Main Post Office         17                34%         46%   493,136     676,036 
           Plant                    4                  8%         35%   375,567    1,884,072 
           Branch                   9                 18%          8%    84,546     128,069 
           Carrier Annex            3                  6%          6%    66,142     104,142 
           Station                  7                 14%          3%    32,187     83,960 
           Finance Station          10                20%          1%    10,430     24,152 
           Grand Total              50                100%       100% 1,062,008  2,900,431

To highlight excess space in the Northern New Jersey District, Illustration 1 depicts two
facilities with excess interior space. The South Hackensack Branch is Postal Service-
owned with one predominantly vacant floor. The Cranford Main Post Office is another
Postal Service-owned facility, which houses delivery and retail operations with a vacant
sub-basement. Both are located near other Postal Service facilities also maintaining
excess space.

Illustration 1 – Examples of Excess Space
South Hackensack Branch                                    Cranford Main Post Office
Interior SF: 86,155                                        Interior SF:35,608
Earned SF: 17,000                                          Earned SF:9,500
OIG Excess SF: 69,155                                      OIG Excess SF: 26,108




See Appendix D for detailed earned space information on each of the facilities visited
during fieldwork.



                                                      11
Facility Optimization: Northern New Jersey District                            DA-AR-10-008




Causes for Excess Interior Space

The opportunity to optimize excess interior space in the Northern New Jersey District
exists because:

        Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

        Facility systems do not track metrics such as dates identified or space conditions
         to allow effective management of excess space.

Guidance Can Be Improved

A review of the Facility Database User Guide shows it does not provide sufficient
guidance for identifying excess space using the workload-driven space requirements.
For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
285 of the 432 Postal Service facilities, only five locations answered “yes” to the vacant
leasable space survey question. Further, our interviews revealed that Operations
employees were unaware of the method used to identify excess space at their facility.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing considerable workload decline, which has resulted in
significant excess space. However, the electronic systems that manage facility space do
not collect or monitor metrics such as length of time space is underutilized or vacant or
its condition to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found that
GSA “ages” its available space for tracking, monitoring, and decision-making. The
Postal Service does not have the ability to age excess space, as dates on entry are not
collected.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends.13 Similarly, owned
facilities are monitored and analyzed using performance metrics such as revenue, funds
from operations, operating costs, vacancy, net operating income, and return on equity.
The Postal Service facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.
13
   State of the Portfolio FY 2008 at:
http://www.gsa.gov/Portal/gsa/ep/channelView.do?pageTypeId=8199&channelPage=%2Fep%2Fchannel%2FgsaOve
rview.jsp&channelId=-24880
                                                      12
Facility Optimization: Northern New Jersey District                    DA-AR-10-008




Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database. To complete this task for our report, we requested industrial
engineers, working with local in-plant support, use blueprints to identify processing
equipment, staging areas, manual work areas, and excess space.

We estimate if the Northern New Jersey district initiates disposal actions, there is a
potential opportunity to realize $157,963,990 over typical and remaining lease terms.
We consider this amount funds that could be used more efficiently or put to better use.
See Appendix C for the monetary impact calculation and assumptions.




                                                      13
Facility Optimization: Northern New Jersey District                                                                                                                                                                                    DA-AR-10-008




                                                                                            APPENDIX C: MONETARY IMPACTS
                                                                                              FUNDS PUT TO BETTER USE

Excess Interior Space Monetary Impacts                                                                                                                                                                                   

Project year                                       0                     1                     2                     3                     4                     5                     6                    7                    8                    9                  10 

Fiscal year                                      2010                  2011                  2012                  2013                  2014                  2015                  2016                 2017                 2018                 2019                2020 

Facilities                                                                                                                                                                                                                                                         

Owned** Sublease Value                   ($53,395,621.20)       $28,371,006.72        $28,371,006.72        $28,371,006.72        $28,371,006.72        $28,371,006.72        $28,371,006.72       $28,371,006.72           $7,092,751.68                          

Utility Savings                                                     $2,866,431.60         $2,923,760.23         $2,982,235.44         $3,041,880.15         $3,102,717.75         $3,164,772.10        $3,228,067.55         $807,016.89                           

custodial savings                                                   $2,266,480.80         $2,266,480.80         $2,266,480.80         $2,266,480.80         $2,266,480.80         $2,266,480.80        $2,266,480.80         $566,620.20                           

Leases Expiring FY 2009***                                                                                                                                                                                                                                         

Sublease Value                               ($2,204,792.55)        $1,171,485.28         $1,171,485.28         $1,171,485.28         $1,171,485.28         $1,171,485.28                                                                                          

Utility Savings                                                      $118,359.65           $120,726.84           $123,141.38           $125,604.21           $128,116.29                                                                                           

custodial savings                                                      $93,586.70            $93,586.70            $93,586.70            $93,586.70            $93,586.70                                                                                          

Leases Expiring After 10/1/2010                                                                                                                                                                                                                                    

Sublease Value                                ($23,775,723)          $12,632,893           $10,605,463             $5,386,989            $4,731,502            $2,837,050           $1,685,844           $1,371,283             $918,615            $710,709            $543,023  

Utility Savings                                                        $1,276,350            $1,092,941             $566,257              $507,302              $310,266              $188,055             $156,025             $106,611              $84,132             $65,567  

custodial savings                                                      $1,009,207             $847,241              $430,352              $377,987              $226,644              $134,677             $109,548               $73,386             $56,777             $43,381  

                                                                                                                                                                                                                                                                   

Subtotal                                 ($79,376,136.30)       $49,805,800.38        $47,492,690.80        $41,391,533.99        $40,686,833.68        $38,507,353.33        $35,810,836.29       $35,502,411.56           $9,565,000.30         $851,617.86         $651,970.84  

Cash Flows @ Sub Lease Efficiency        ($68,263,477.22)       $42,832,988.33        $40,843,714.08        $35,596,719.23        $34,990,676.97        $33,116,323.86        $30,797,319.21       $30,532,073.94           $8,225,900.26         $732,391.36         $560,694.92  
Rate 
Discounted at USPS cost of               ($68,263,477.22)       $41,384,529.78        $38,128,044.14        $32,106,201.26        $30,492,353.48        $27,883,056.08        $25,053,639.02       $23,997,934.13           $6,246,843.72         $537,378.23         $397,487.18  
borrowing 
 
 
                                                                                               Net Present Value: $157,963,990

                              Build-Out Costs SF                                                 $40.05                                     Utilities Savings SF per Year                                         $2.15
                              Lease Savings SF per Year                                          $21.28                                     Utility Cost Escalation Rate                                          2.0%
                              USPS Cost of Borrowing                                             3.5%                                       Custodial Rate SF                                                     $3.40
                              Sub-lease Efficiency Rate                                          86%

                                                                               Assumption: **Weighted Average Lease Years = 7.3

                                                                                                                            14
                                                                                                                  Restricted Information
Facility Optimization: Northern New Jersey District                                         DA-AR-10-008




Value Assigned to Excess Space
The lease cost per square foot for the Northern New Jersey District is $21.28. Using
Facility Inventory Reports from the eFMS, we calculated this figure by dividing total
interior square footage by total lease costs. The value is similar to $19.34,14 the average
square foot cost for leasing commercial retail and office space in the district.

Utility Costs Associated with Excess Space
The utility cost per square foot for the Northern New Jersey District is $2.15, with a cost
escalation rate of 2 percent. Using the Financial Performance Report (FPR), Line 42,
we calculated this figure by dividing total annual utility expenses for FY 2009 by the
district’s total interior square footage.

Maintenance Costs Associated with Excess Space
The maintenance cost per square foot for the Northern New Jersey District is $3.40. We
calculated this figure by dividing the total annual maintenance expenses15 (FY 2009) by
the district’s total interior square footage. However, we reduced the cost by 50 percent
based on previously identified savings in a custodial maintenance audit.16

Build-Out Costs Associated with Implementing Optimization Actions
The build-out cost per square foot for the Northern New Jersey District is $40.05. We
calculated this figure by dividing the “build-out/Line 63 capital” costs for all approved
optimization node studies in the Northeast Area by the total reduction in square footage
identified in the approved node studies.

Ownership of Facility and Term Years
We categorized all facilities within the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining in the lease.

We calculated leases expiring before the end of FY 2010 based on the assumption the
leases would be renewed for the standard 5-year period. We calculated leases expiring
after October 1, 2010 for the remaining lease term; and calculated Postal Service-
owned facilities over a period of 73 years, which was the historical national average
lease term.

Sublease Efficiency Rate
We obtained the national commercial property vacancy rate of 14 percent from the
National Realty Association for industrial and retail space. As such, we reduced the net
present value savings realization to an 86 percent “success rate.”




14
   Realtor.com analyzes comparable private sector commercial retail and office space properties to determine
average square footage costs.
15
   eFlash (Labor Distribution Code 38, Salary and Benefits) + FPR, Line 3F, Contract Cleaners Costs
16
   Custodial Maintenance Audit Report, (Report Number DA-AR-09-011, dated August 13, 2009).
                                                         15
                                               Restricted Information
 Facility Optimization: Northern New Jersey District                              DA-AR-10-008



                                APPENDIX D: FACILITIES VISITED

                                                                                   Square
                                                                                                 Potential
                                                       Interior   Total Earned     Footage
                                                                                                  Excess
   Facility Name             Type of Facility          Square     Building Size   Identified
                                                                                                  Square
                                                       Footage    From Matrix      in Node
                                                                                                 Footage
                                                                                   Studies
Allwood                   Finance Station                 2,640           3,000                         -
Ampere                    Finance Station                   711             700                         -
Bayway                    Finance Station                 1,264             900                       364
Belleville                Branch                          6,115           3,000                     3,115
Belleville Annex          Carrier Annex                  49,000          15,000                    34,000
Bergen North              Station                        13,020           8,000                     5,020
Bergen South              Station                        21,459          10,000                    11,459
Bogota                    Branch                          1,000           2,000                         -
Clifton                   Main Post Office               49,500          19,500                    30,000
Cranford                  Main Post Office               35,608           9,500                    26,108
Dominick V. Daniels       Plant                         874,556               -                   188,600
East Orange               Main Post Office               27,000           9,500                    17,500
Edison                    Main Post Office               23,477          15,000                     8,477
Elizabeth                 Main Post Office               69,800          25,000                    44,800
Elmora                    Finance Station                 1,111             700                       411
Fort Lee Annex            Carrier Annex                  21,340           6,500                    14,840
Garfield                  Main Post Office               12,321           7,000                     5,321
Hackensack                Main Post Office               12,118           3,900                     8,218
Hasbrouck Heights         Branch                          7,900           6,000                     1,900
Highland Park             Main Post Office                2,470           2,000                       470
Hoboken                   Main Post Office               32,891          11,000                    21,891
Home News Row             Carrier Annex                  33,802          16,500                    17,302
Jersey City               Main Post Office               90,517          12,000                    78,517
Journal Square            Station                         8,897           9,500                         -
Kearny                    Main Post Office               26,250          10,000                    16,250
Kilmer Processing &       Plant                         286,950           1,500                    31,080
Distribution Center
Leonia                    Branch                          2,996           4,000                         -
Little Ferry              Main Post Office                6,500           5,000                     1,500
Lyndhurst                 Branch                          4,691           6,000                         -
Main Avenue Station       Finance Station                 5,184           4,000                     1,184
Newark P&DC               Plant                         382,224           9,500                   140,812
Nixon                     Station                         6,065           5,000                     1,065
North                     Finance Station                 5,614           2,000                     3,614
North Arlington           Branch                          1,836           2,000                         -
North Elizabeth           Finance Station                 3,288             700                     2,588
Northern NJ Metro         Plant                         340,342               -                    15,075
Nutley                    Branch                         11,100           2,000                     9,100
Passaic                   Main Post Office               41,128           9,500                    31,628

                                                       16
 Facility Optimization: Northern New Jersey District                                           DA-AR-10-008


                                                                                                Square
                                                                                                               Potential
                                                          Interior        Total Earned          Footage
                                                                                                                Excess
   Facility Name                Type of Facility          Square          Building Size        Identified
                                                                                                                Square
                                                          Footage         From Matrix           in Node
                                                                                                               Footage
                                                                                                Studies
Paterson                    Main Post Office                159,536                13,000                        146,536
Plainfield                  Main Post Office                 37,500                12,000                         25,500
Ridgefield Park             Main Post Office                  7,420                 5,000                          2,420
River Street                Station                          14,436                 2,900          14,436              -
Riverfront Plaza            Finance Station                   1,779                   700                          1,079
Roseville17                 Station                             840                 5,000                          4,900
South Hackensack            Branch                           86,155                17,000                         69,155
Springfield Ave             Station                          19,243                 9,500                          9,743
Union                       Main Post Office                 42,000                14,000                         28,000
Union Square                Finance Station                     871                 2,000                              -
Washington Park             Finance Station                   1,690                   500                          1,190
Wood Ridge                  Branch                            6,276                 5,000                          1,276
        Totals                                            2,900,431               352,000          14,436      1,062,008




 17
    In eFMS, Roseville is shown as an 840 square foot facility. During fieldwork, we measured the facility as 9,900
 square feet, which we used to calculate the OIG excess.
                                                           17
Facility Optimization: Northern New Jersey District          DA-AR-10-008



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                                      18
Facility Optimization: Northern New Jersey District        DA-AR-10-008




                                                      19
Facility Optimization: Northern New Jersey District        DA-AR-10-008




                                                      20
Facility Optimization: Northern New Jersey District        DA-AR-10-008




                                                      21
Facility Optimization: Northern New Jersey District        DA-AR-10-008




                                                      22
